               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 14-00467-202



               Healthcare Inspection 


Substandard Care of a Lupus Patient 

     at the Albany CBOC and 

  Carl Vinson VA Medical Center 

          Dublin, Georgia 





July 1, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to complaints about mismanagement of patient care at the Carl
Vinson VA Medical Center (the facility), Dublin, GA, and the contractor-operated Albany
community based outpatient clinic (CBOC). Because of limitations in the contract, we
could not fully evaluate some of the issues that were central to this case.
We did not substantiate the allegation that a patient with systemic lupus erythematosus
(lupus) was not promptly treated for a urinary tract infection (UTI) and that the infection
contributed to her death. The patient did not have test results consistent with a UTI.
We do not know the precise cause of death, but the patient had laboratory evidence
consistent with increased lupus activity in the month preceding her death. While facility
and contract CBOC providers were aware of the patient’s lupus diagnosis, neither
acknowledged this significant clinical finding in their progress notes nor consulted a
rheumatologist for follow-up.
We could not substantiate that the patient was told that the facility would not pay for
further care with a private-sector rheumatologist. We were unable to interview the
Albany CBOC providers or their supervisors, but the patient’s electronic health record in
the 9 months prior to her death did not reflect discussion of the need for reauthorizing
Non-VA care. Therefore, we could not say specifically what the patient was told about
future Non-VA care. Based on medical record documentation, it did not appear that
either of the Albany CBOC physician assistants who cared for the patient in 2011–2012
ensured that she received appropriate continuity of rheumatology care.
Responsible facility clinicians and managers did not comply with guidelines for
completing peer reviews, and as a result, the peer review of this case did not address
the full scope of quality issues contributing to the patient’s outcome.

We recommended that the facility develop a system to ensure appropriate follow-up on
Non-VA care consults; follow policies for conducting and completing peer reviews;
evaluate the VA care provided to this patient and determine the need for possible
disclosure; and ensure that an individual patient’s clinical complexity is considered when
assigning a primary care provider.
Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 7–11 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.



                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for 

                                                            Healthcare Inspections



VA Office of Inspector General                                                                   i
            Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA


                                                 Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to evaluate allegations of patient care mismanagement at the Carl Vinson
VA Medical Center (the facility), Dublin, GA, and the Albany community based
outpatient clinic (Albany CBOC). The purpose of the review was to determine the merit
of the allegations.

                                             Background 

The facility is a 34-bed secondary care center located in Dublin, GA, that provides a
broad range of inpatient and outpatient medical and mental health services. The facility
has five CBOCs located in Albany, Brunswick, Macon, Milledgeville, and Perry, GA.
The Albany CBOC, located approximately 98 miles southwest of the facility, is staffed
with physicians, nurse practitioners, and physician assistants (PAs) who are employed
by a local health maintenance corporation (HMC). These providers deliver primary care
and associated services to eligible veterans through a contract between the facility and
the HMC.

Systemic lupus erythematosus (lupus) is a chronic, inflammatory, autoimmune disease
in which the immune system attacks the body’s own organ systems, resulting in
inflammation and tissue damage. Lupus can affect multiple organs including the skin,
blood vessels, heart, lung, kidneys, and nervous system. The course of the disease is
unpredictable, with periods of illness (called flares) alternating with periods of quiet
inactivity. Lupus patients have characteristic immunologic abnormalities and may have
a compromised immune response due to the disease itself and/or the effects of the
pharmacologic agents used in treating the condition. Lupus is managed with
corticosteroids and other agents that may suppress the body’s immune response.
There is no cure for lupus and the condition can be fatal. Because it is a chronic and
complex disease, lupus requires treatment by, or consultation with, a rheumatologist.1,2

Allegations

On September 26, 2013, the OIG received an e-mail from a complainant alleging that a
patient:

     	 Was not promptly treated for a urinary tract infection (UTI),3 which contributed to
        her premature death.



1
  http://www.rheumatology.org/practice/clinical/patients/diseases_and_conditions/lupus.asp, accessed March 31,
2014
2
  A rheumatologist is a specially trained physician with expertise in the diagnosis and medical management of

patients with select inflammatory conditions, often autoimmune (such as lupus) affecting the joints, muscle, bone, 

and various internal organs.

3
  A UTI is an infection in any part of the urinary system—kidneys, ureter, bladder, or urethra.

http://www.mayoclinic.com/health/urinary-tract-infection/DS00286, accessed December 9, 2013. 



VA Office of Inspector General                                                                                         1
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA


    	 Was told that the facility would not pay for the further services of a private-sector
       rheumatologist.

Although not an allegation, we also evaluated selected aspects of the facility’s internal
review of the case.

                            Scope and Methodology 

We conducted a site visit to the facility December 11–12, 2013. We interviewed the
complainant and reviewed the patient’s electronic health record (EHR); relevant
Veterans Health Administration (VHA) and facility policies, directives, and handbooks;
patient advocate reports; quality management documents; and a physician assistant’s
scope of practice. During our site visit, we interviewed the Chief of Staff, Chief of
Non-VA Care Services, Chief of Pharmacy, and Chief of Pathology and Laboratory
Medicine Service. We also interviewed nursing staff, patient representatives, and the
Director of Primary Care. We interviewed, via telephone, the patient’s former
private-sector rheumatologist.

Because a portion of the patient’s care was at the Albany CBOC, we attempted to
interview Albany CBOC staff and review their policies and practices. However, the
contract between the facility and the HMC did not contain a provision requiring the
contracted staff to talk with us or allow us to review their records. The contractor, based
on advice of counsel, would not allow us to access the facility to review records or
interview staff and we had no statutory authority to compel compliance with our request
for interviews. Because of these limitations, we could not fully evaluate some of the
issues that were central to this case.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                  2
             Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA


                                           Case Summary 

In 2006, a private-sector rheumatologist diagnosed a female patient in her 30s with
lupus and started her on a regimen of anti-inflammatory, immunosuppressive
medications. The private-sector rheumatologist told us that he evaluated the patient at
3–6 month intervals from 2006 through 2010. The facility authorized these visits
because rheumatology care was not reasonably available to this patient within the VA
system.4

The patient’s last visit with the private-sector rheumatologist occurred in February 2011,
when her condition was described as “stable,” with no change to her treatment plan.
The patient did not keep a follow-up appointment in May, and she cancelled a
subsequent appointment scheduled for August 16.

According to the EHR, the patient’s assigned primary care provider at the Albany clinic,
a physician assistant (PA-1), evaluated her for sinus congestion in late August 2011.
During this visit, PA-1 referenced the patient’s diagnosis of lupus, commenting that she
was “…seeing a local rheumatologist. She states she is currently doing well, but needs
another referral.” PA-1’s plan included “lupus/new referral,” but the EHR does not
reflect that a rheumatology referral was made that day or on a subsequent day.

A second physician assistant, PA-2, saw the patient at the Albany CBOC in May 2012,
for a routine visit to assess chronic health issues, including lupus. During this visit,
PA-2 described the lupus condition as “stable,” though laboratory data obtained that day
revealed worsening anemia and the presence of proteinuria.5 We found no further
reference to the patient’s lupus or need for a rheumatology referral. According to
PA-2’s plan of care, he/she advised the patient to return to the Albany CBOC in 1 year.

In early June 2012, the patient attended a follow-up visit in the Women’s Health (WH)
Clinic at the facility.     The WH provider ordered a urinalysis, which revealed
abnormalities of increasing proteinuria and 28 red blood cells not menstrual-related.6
The WH provider judged the urine profile as “showing some infection” and ordered
antibiotics for the patient with delivery to the patient’s home. We found no mention of
increasing lupus activity or need for rheumatologic care. Four days later, the patient
died at home. The next-of-kin declined an autopsy.




4
  The facility could not produce the invoices back to these dates due to a change in recordkeeping systems; however, 

facility staff confirmed that the patient had previously been authorized for private-sector rheumatology care. 

5
  Proteinuria occurs when protein molecules in the circulating blood spill into the urine; proteinuria may indicate 

inflammation or structural damage in the kidneys, which allows “leakage” into the urine.

6
  Normal urine contains 0-2 red blood cells per high-powered field under a microscope. The finding of 28 red blood 

cells unassociated with menstruation in a patient with lupus raises the specter of lupus actively affecting the kidney. 



VA Office of Inspector General                                                                                        3
             Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA



                                        Inspection Results 

Issue 1: Quality of Care

UTI

We did not substantiate the allegation that the patient was not promptly treated for a UTI
and that the infection contributed to her death. Urinalyses conducted in May and
June 2012 (4 days prior to the patient’s death) were both negative for the presence of
significant “nitrite”7 and “leukocyte esterase.”8 Neither urine profile was suggestive of,
or consistent with, a UTI.

The WH provider prescribed antibiotics when test results were not consistent with an
infection. The WH provider had retired at the time of our visit and was unavailable for
interview.

Lupus Flare

Without an autopsy, the precise cause of the patient’s death remains uncertain. During
the course of our review, however, we found that the patient had clinical signs
consistent with increased lupus activity in the month preceding her death. The patient
developed a significant anemia in May 2012, and urinalysis results showed progressive
protein leakage and an increasing number of red blood cells. These findings are highly
suggestive of lupus activity with kidney involvement, especially in a patient with a known
diagnosis of lupus.

While both PA-2 and the WH provider were aware of the patient’s lupus diagnosis,
neither acknowledged this significant clinical finding in their progress notes nor
consulted a rheumatologist for follow-up care.

Issue 2: Access to Non-VA Care

We could not substantiate that the patient was told that the facility would not pay for
further care with a private-sector rheumatologist. Non-VA Care is a program that allows
VA facilities to preauthorize and pay for specialty services that are not reasonably
available through a VA health care system.9 In this case, the facility had authorized the
patient to see a private-sector rheumatologist near her home for several years.

We were unable to interview the Albany CBOC providers or their supervisors, but the
patient’s EHR in the 9-months prior to her death did not reflect discussion of the need
for reauthorizing Non-VA care. Therefore, we could not say specifically what the patient
was told about future Non-VA care. Facility staff confirmed that, in general, patients

7
  Urine nitrite is a screening test to detect a substance present in the urine of many patients with the common 

bacteria causing UTIs. 

8
  Leukocyte esterase is a screening test to detect white blood cells in urine and is usually positive in bacterial UTIs. 

A negative leukocyte esterase test indicates that a UTI is unlikely. 

9
  http://www.nonvacare.va.gov/, accessed January 3, 2014. 



VA Office of Inspector General                                                                                           4
              Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA


requiring specialty care should receive the care within the VA health care system
whenever possible. Staff also stated that the facility Director had issued a “blanket
approval” allowing this patient to receive Non-VA rheumatology care. We found no
documented evidence of this approval.

While we could not determine what information the patient received about future
Non-VA care, it did not appear (based on EHR documentation) that PA-1 or PA-2 at the
Albany CBOC ensured that she received appropriate, ongoing rheumatology care.
Because lupus is chronic, complex, and unpredictable, the frequency of rheumatology
visits should be determined by a rheumatologist. PAs generally do not have the
specialty training needed to manage lupus-related conditions independently.

Issue 3: Adequacy of Internal Quality Review

While not an allegation, during the course of our review we found responsible clinicians
and managers did not adequately consider the scope of quality issues contributing to
the patient’s adverse outcome.

Peer review for quality improvement includes all protected clinical reviews of patient
care by an individual clinician that are performed for the purpose of improving the
quality of health care. Peer review findings and results are generally confidential and
may not be disclosed.10 However, the process by which the facility peer-reviewed the
VA care delivered in this case may be discussed in this report.

The facility did not follow VHA Directive 2008-004, Peer Review for Quality
Management, which requires the peer reviewer to evaluate quality and/or resource
issues related to care using the 11 “Aspects for Review of Care.” The aspects of care
relevant to this case include:

          Lack of recognition and/or communication of critical clues to the patient’s
           condition during a period of clinical deterioration.
          Abnormal results of diagnostic tests not addressed.

Reportedly, the peer reviewer was asked to evaluate a narrowly focused issue that did
not include the above aspects of care. The peer reviewer did as requested but did not
consider or address the question of what may have contributed to the patient’s
unexpected death 4 days after a WH appointment.

The peer reviewer told us that during the record review of the case, he/she recognized
the abnormal laboratory value showing proteinuria. However, he/she did not comment
on this clinical finding (which suggested a lupus flare) or the fact that it went
unaddressed. When the scopes of peer reviews do not include or consider the relevant
aspects of care as defined in VHA and local policies, facility leaders and risk managers
cannot be assured that peer review results are informative and credible.



10
     http://www.va.gov/vhapublications/ViewPublication.asp?pub_ID=2250, Accessed April 8, 2014.


VA Office of Inspector General                                                                     5
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA



                                     Conclusions 

Due to limitations in the contract between the facility and the Albany CBOC contractor,
we could not fully evaluate some of the issues central to this case.

We did not substantiate that the patient was not promptly treated for a UTI, which
contributed to her premature death. The patient’s test results were not consistent with a
UTI. The patient’s most recent laboratory results revealed worsening anemia and
urinalysis findings of significant proteinuria. These results suggest an increase in lupus
disease activity with kidney involvement. While both the primary care and WH providers
were aware of the patient’s lupus diagnosis, neither followed-up on the abnormal
laboratory values nor consulted a specialist. The precise cause of death remains
uncertain.

Because the services at the CBOC were provided by a contractor, not VA personnel,
CBOC staff were not obligated to talk to us, and we could not compel them to do so.
Therefore, we could not determine what the patient was told about future Non-VA care
with a private-sector rheumatologist. We did not find evidence of Non-VA care referrals
or authorizations in the 9 months prior to her death. Based on EHR documentation, it
did not appear that either of the Albany CBOC PAs who cared for the patient in
2011–2012 ensured that she received appropriate, ongoing rheumatology care.

Although not an allegation, responsible clinicians and managers did not comply with
guidelines for completing peer reviews, and as a result, the peer review of this case did
not address the full scope of quality issues contributing to the patient’s outcome.

                                 Recommendations 

1. 	 We recommended that the Facility Director develop a system to ensure appropriate
     follow-up on Non-VA care consults.

2. 	 We recommended that the Facility Director ensure that managers and peer
     reviewers follow policies for conducting and completing peer reviews.

3. 	 We recommended that the Facility Director evaluate the VA care provided to the
     patient summarized in this report and confer with Regional Counsel regarding the
     need for possible disclosure.

4. 	 We recommended that the Facility Director and the Chief of Staff ensure that an
     individual patient’s clinical complexity is considered when assigning a primary care
     provider.




VA Office of Inspector General                                                                  6
            Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA
                                                                                       Appendix A
                            VISN Director Comments


              Department of
              Veterans Affairs	                               Memorandum

    Date:     June 2, 2014

    From:     Director, Veterans Integrated Service Network (10N7)

     Subj: 	 Draft Report—Healthcare Inspection—Mismanagement of Patient Care,
              Carl Vinson VA Medical Center, Dublin, Georgia

       To:    Director, Atlanta Office of Healthcare Inspections (54AT)

              Director, Management Review Service (VHA 10AR MRS OIG Hotline)



         1. I have reviewed the subject Draft Report and Dublin’s related action
            plans. I concur with their action plans and will ensure that VISN
            oversight is provided to monitor and support the timely completion of
            these actions.

         2. Thanks and again we appreciate your partnership as we work to
            improve the quality of care provided to Veterans at the Dublin VA
            Medical Center and its CBOCs. If there are any questions, contact Dr.
            Robin Hindsman at 678-924-5723.




                Charles E. Sepich, FACHE




VA Office of Inspector General                                                                   7
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA
                                                                                      Appendix B
                         Facility Director Comments


                Department of
                Veterans Affairs	                            Memorandum

       Date:	 May 23, 2014

       From:	 Director, Carl Vinson VA Medical Center (557/00)

       Subj: 	 Draft Report— Healthcare Inspection – Mismanagement of Patient
                Care, Carl Vinson VA Medical Center, Dublin, GA

          To:   Director, Veterans Integrated Service Network (10N7)

           1. I c	 oncur with the attached facility draft responses to the
              recommendations. I provided information to clarify Issue 2, lines 2-
              4, page 3.

           2. If you have any additional questions or concerns, please contact
              Jahmel Yates, Quality Manager at 478-272-1210 ext. 2446.




VA Office of Inspector General                                                                  8
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA



                             Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

The facility would like to clarify the following:

Issue 2, lines 2–4, page 3, Access to Non-VA Care: Staff also stated that the facility
Director had issued a “blanket approval” allowing this patient to receive Non-VA
rheumatology care. We found no documented evidence of this approval.

The facility Director did not issue a “blanket approval” allowing this patient to receive
Non-VA rheumatology care. He indicated on numerous occasions that Veterans
residing in the Brunswick and Albany CBOC catchment areas are authorized for Non-
VA care due to the distance to the nearest VA facility if it is determined the care is
clinically appropriate and medically necessary.

OIG Recommendations

Recommendation 1. We recommended that the Facility Director develop a system to
ensure appropriate follow-up on Non-VA care consults.

Concur

Target date for completion: August 30, 2014

Facility response: In September 2013, Dublin VAMC implemented the Non-VA Care
Coordination (NVCC) process following national guidelines. There is a designated
NVCC physician who provides oversight and, in collaboration with the NVCC nurses,
reviews and determines the appropriateness of NVCC consults. Special emphasis is
placed on high risk, urgent, and stat consult follow-up. NVCC administrative staff
monitor scheduled consults on a daily basis. The referring provider receives alerts for
every edit made to the consult. Current performance improvement initiatives include
increasing clinical and administrative NVCC staff, as well as improving relationships
with community partners.

Action – Dublin’s NVCC leads will provide training to Albany CBOC clinical staff to
ensure that they are aware of the process for submitting a NVCC Consult request and
how to track such requests to ensure that they have been processed by NVCC. The
goal is to create a continuous care process for Veterans who are receiving care in
Dublin’s Contract CBOCs.

Recommendation 2.     We recommended that the Facility Director ensure that
managers and peer reviewers follow policies for conducting and completing peer
reviews.

Concur



VA Office of Inspector General                                                                  9
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA


Target date for completion: September 30, 2014

Facility response: In December 2013, we reviewed the local Peer Review Policy for
congruence with VHA Directive 2010-025, Peer Review for Quality Management. The
local policy was found to include all required components. The Chief of Staff chairs the
Peer Review Committee and actively provides oversight of the peer review process.

In March 2014, the peer review documentation form was revised to specifically instruct
the reviewer to check all aspects of care that may be applicable in cases identified as
Level-2 or Level-3.

Protected peer review education is provided to all clinical health care professionals and
to new staff. Peer Review Committee members and Peer Reviewers are required to
complete initial training prior to assuming their roles and every two years thereafter.

Action – Dublin’s Risk Manager will conduct a performance monitor to track the quality
of peer reviews submitted to the PRC. This monitor will track the accuracy and
completion of the PR form, the accuracy and completeness of the PR scope, and the
comprehensiveness documentation provided by the peer reviewer on the form related to
the identified levels and scope of the peer review. This monitor will be submitted to the
PRC for review and action of all substandard peer reviews.

Recommendation 3. We recommended that the Facility Director evaluate the VA care
provided to the patient summarized in this report and confer with Regional Counsel
regarding the need for possible disclosure.

Concur

Target date for completion: July 15, 2014

Facility response: We have discussed further with Regional Counsel and the VISN and
are moving forward with the process to provide an Institutional Disclosure as
appropriate.

Recommendation 4. We recommended that the Facility Director and the Chief of Staff
ensure that an individual patient’s clinical complexity is considered when assigning a
primary care provider.

Concur

Target date for completion: September 30, 2014

Facility response: We have a process in place to facilitate co-managed care for
Veterans receiving care with Non-VA specialists, in accordance with VHA Directive
2009-038, VHA National Dual Care Policy. Veterans with a chronic disease, such as
lupus, may be managed by a mid-level provider. The provider should ensure that the
Veteran is receiving the appropriate specialty treatment periodically and whenever
acutely necessary. Mid-level providers function under the auspices of a medical


VA Office of Inspector General                                                                 10
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA


director, who is a physician. Complex cases are routinely discussed with the
supervising physician and referred as needed.

Action – Dublin will conduct clinical reviews of Albany’s mid-level provider’s panels
containing Veterans with clinical complex diagnosis and work within the Contract to
ensure that veterans are provided appropriate clinical care oversight by an Attending
Physician.




VA Office of Inspector General                                                                 11
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA
                                                                                      Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Joanne Wasko, LCSW, Team Leader
                         Victoria Coates, LICSW, MBA
                         Thomas Jamieson, MD




VA Office of Inspector General                                                                 12
           Substandard Care of a Lupus Patient at the Albany CBOC and Carl Vinson VAMC, Dublin, GA
                                                                                      Appendix D

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Carl Vinson VA Medical Center (557/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Johnny Isakson
U.S. House of Representatives: 	John Barrow, Sanford D. Bishop, Jr., Paul C. Broun,
 Doug Collins, Phil Gingrey, Tom Graves, Henry C. Johnson, Jr., Jack Kingston, John
 Lewis, Tom Price, Austin Scott, David Scott, Lynn A. Westmoreland, Robert Woodall



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                 13
